<html>
<title> - EVALUATING EFFORTS TO HELP FAMILIES SUPPORT THEIR CHILDREN AND ESCAPE POVERTY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




 
                  EVALUATING EFFORTS TO HELP FAMILIES
               SUPPORT THEIR CHILDREN AND ESCAPE POVERTY

=======================================================================

                                HEARING

                               before the

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 17, 2013

                               __________

                          Serial No. 113-HR06

                               __________

         Printed for the use of the Committee on Ways and Means
         
         
         
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     





                    U.S. GOVERNMENT PUBLISHING OFFICE
                  
 89-536                   WASHINGTON : 2016       
____________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Publishing Office,
Internet:bookstore.gpo.gov. Phone:toll free (866)512-1800;DC area (202)512-1800
  Fax:(202) 512-2104 Mail:Stop IDCC,Washington,DC 20402-001                 



         
         
         
         


                      COMMITTEE ON WAYS AND MEANS

                     DAVE CAMP, Michigan, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan
KEVIN BRADY, Texas                   CHARLES B. RANGEL, New York
PAUL RYAN, Wisconsin                 JIM McDERMOTT, Washington
DEVIN NUNES, California              JOHN LEWIS, Georgia
PATRICK J. TIBERI, Ohio              RICHARD E. NEAL, Massachusetts
DAVID G. REICHERT, Washington        XAVIER BECERRA, California
CHARLES W. BOUSTANY, Jr., Louisiana  LLOYD DOGGETT, Texas
PETER J. ROSKAM, Illinois            MIKE THOMPSON, California
JIM GERLACH, Pennsylvania            JOHN B. LARSON, Connecticut
TOM PRICE, Georgia                   EARL BLUMENAUER, Oregon
VERN BUCHANAN, Florida               RON KIND, Wisconsin
ADRIAN SMITH, Nebraska               BILL PASCRELL, Jr., New Jersey
AARON SCHOCK, Illinois               JOSEPH CROWLEY, New York
LYNN JENKINS, Kansas                 ALLYSON SCHWARTZ, Pennsylvania
ERIK PAULSEN, Minnesota              DANNY DAVIS, Illinois
KENNY MARCHANT, Texas                LINDA SANCHEZ, California
DIANE BLACK, Tennessee
TOM REED, New York
TODD YOUNG, Indiana
MIKE KELLY, Pennsylvania
TIM GRIFFIN, Arkansas
JIM RENACCI, Ohio

        Jennifer M. Safavian, Staff Director and General Counsel

                  Janice Mays, Minority Chief Counsel

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

                DAVID G. REICHERT, Washington, Chairman

TODD YOUNG, Indiana                  LLOYD DOGGETT, Texas
MIKE KELLY, Pennsylvania             JOHN LEWIS, Georgia
TIM GRIFFIN, Arkansas                JOSEPH CROWLEY, New York
JIM RENACCI, Ohio                    DANNY DAVIS, Illinois
TOM REED, New York
CHARLES W. BOUSTANY, Jr., Louisiana





                            C O N T E N T S

                               __________

                                                                   Page

Advisory of July 17, 2013 announcing the hearing.................     2

                               WITNESSES

Jon Baron, President, Coalition for Evidence-Based Policy, 
  Testimony......................................................     6
Kristen Cox, Executive Director, Utah Governor's Office of 
  Management and Budget, Testimony...............................    17
Steve Aos, Director, Washington State Institute for Public 
  Policy, Testimony..............................................    25
David B. Muhlhausen, Ph.D., Research Fellow, Empirical Policy 
  Analysis, The Heritage Foundation, Testimony...................    33
Tara Smith, Research Associate, Ray Marshall Center, Lyndon B. 
  Johnson School of Public Affairs, The University of Texas, 
  Testimony......................................................    44

                       SUBMISSIONS FOR THE RECORD

Family Equality Council..........................................    71
American Evaluation Association..................................    77
Urban Institute..................................................    87
Zero to Three....................................................    94
Capital IDEA Board of Directors..................................   101
PEW Charitable Trusts............................................   103
Chautauqua Opportunities.........................................   106



 EVALUATING EFFORTS TO HELP FAMILIES SUPPORT THEIR CHILDREN AND ESCAPE 
                                POVERTY

                              ----------                              


                        WEDNESDAY, JULY 17, 2013

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 4:06 p.m., in 
room 1100, Longworth House Office Building, the Honorable Dave 
Reichert [Chairman of the Subcommittee] presiding.
    [The advisory of the hearing follows:]

HEARING ADVISORY

   Chairman Reichert Announces Hearing on Evaluating Efforts to Help 
           Families Support their Children and Escape Poverty

1100 Longworth House Office Building at 4:00 PM
Washington, July 10, 2013

    Congressman Dave Reichert (R-WA), Chairman of the Subcommittee on 
Human Resources of the Committee on Ways and Means, today announced 
that the Subcommittee will hold a hearing titled, ``What Really Works: 
Evaluating Current Efforts to Help Families Support their Children and 
Escape Poverty.'' The hearing will review evidence about the 
effectiveness of programs designed to assist low-income families and 
individuals, how Congress can ensure these programs are evaluated 
effectively, and how funding can best be directed toward programs and 
services that have the greatest impact on reducing poverty. The hearing 
will take place at 4:00 pm on Wednesday, July 17, 2013, in Room 1100 of 
the Longworth House Office Building. This hearing is the second in a 
three-part series of hearings on welfare reform issues.
      
    In view of the limited time available to hear from witnesses, oral 
testimony at this hearing will be from invited witnesses only. 
Witnesses will include experts on the evaluation of social programs, as 
well as experts who use high-quality evaluations to inform public 
policy decisions. However, any individual or organization not scheduled 
for an oral appearance may submit a written statement for consideration 
by the Committee and for inclusion in the printed record of the 
hearing.
      

BACKGROUND:

      
    The Federal Government spends hundreds of billions each year on 
more than 80 programs for families and individuals with low income. 
While each of these programs is intended to alleviate poverty and 
improve the lives of those who receive these benefits, few programs 
have been rigorously evaluated to determine if they actually achieve 
their goals. According to social policy experts writing about the 
evaluation of Federal social programs in 2010, ``[s]ince 1990, there 
have been 10 instances in which an entire Federal social program has 
been evaluated using the scientific `gold standard' method'' to 
determine whether the program really works, and ``nine of these 
evaluations found weak or no positive effects.''
      
    Research has shown that dozens of specific interventions have 
demonstrated positive results in addressing various social problems, 
including by reducing child maltreatment, improving educational 
achievement, and increasing employment and earnings. However, in some 
cases, high-quality evaluations have revealed that some programs 
previously believed to be effective actually had no impact. In other 
cases, social programs expected to improve the lives of low-income 
adults or children actually caused harm--meaning those who did not 
receive the service or benefit avoided the detrimental effects caused 
by the program because they did not participate. In addition, many 
Federal social programs have never been rigorously evaluated to 
determine whether they effectively address the problem they were 
created to solve, and evidence of effectiveness is not routinely used 
by Congress to address program deficiencies or redirect funding to more 
effective programs and policies.
      
    In announcing the hearing, Chairman Reichert stated, ``Americans 
have always been willing to help those in need. But when the American 
people are asked to fund programs to help those most in need, they 
should be assured that their tax dollars are really making a positive 
difference. Unfortunately, few of our Nation's social programs have 
been rigorously evaluated, and even fewer have shown that they are 
effective in addressing the problems they set out to solve. It is 
critical that we learn more about what works to help low-income 
families, that we ensure these programs are evaluated effectively, and 
that we focus taxpayer resources on those efforts that truly help 
families and children in need.''
      

FOCUS OF THE HEARING:

      
    The hearing will review what we know about the effectiveness of 
current programs designed to assist low-income families and 
individuals, how Congress can ensure more social programs are 
rigorously evaluated to determine their impact, and how high-quality 
evidence can best be used to inform the design of social programs at 
the federal level.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``Hearings.'' Select the hearing for which you would like to submit, 
and click on the link entitled, ``Please click here to submit a 
statement or letter for the record.'' Once you have followed the online 
instructions, submit all requested information. Attach your submission 
as a Word document, in compliance with the formatting requirements 
listed below, by Wednesday, July 31, 2013. Finally, please note that 
due to the change in House mail policy, the U.S. Capitol Police will 
refuse sealed-package deliveries to all House Office Buildings. For 
questions, or if you encounter technical problems, please call (202) 
225-1721 or (202) 225-3625.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word format and MUST NOT exceed a total of 10 pages, including 
attachments. Witnesses and submitters are advised that the Committee 
relies on electronic submissions for printing the official hearing 
record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone, and fax numbers of each witness.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available 
online at http://www.waysandmeans.house.gov/.

                                 <F-dash>

    Chairman REICHERT. Good afternoon, the Committee will come 
to order. This is the second in our series of three hearings on 
welfare reform. In our first hearing, we learned that programs 
designed to help low-income families often don't do enough to 
help recipients go to work and get ahead. Today we will explore 
what we know about the effectiveness of such programs, how we 
can hold more programs accountable for their performance, and 
how we can ensure they provide real help so recipients can 
support their families and move up the economic ladder. Over 
one-third of American households receive low-income benefits 
today, and Federal spending alone on these programs equals 
$15,000 per individual below the poverty line each year. Yet 
few programs can show that they improve outcomes for those in 
need.
    What we will hear today is that in many cases, these 
programs are either untested or have not been proven to work. 
According to program evaluation experts, ``Since 1990, there 
have been 10 instances in which an entire Federal social 
program has been evaluated using the scientific gold standard 
method of randomly assigning individuals to a program or 
control group. Nine of the evaluations found weak or no 
positive effects.''
    In another example, a review of 13 rigorous studies on 
employment and training programs showed three-quarters of them 
had weak or no positive effects on those that they were 
supposed to be helping. All of this comes at a cost. The 
programs in question continued to spend literally billions of 
dollars every year without delivering the results promised to 
those in need.
    We know many social programs lack meaningful outcomes, but 
some programs go further and can even be harmful. For example, 
Scared Straight--which I am familiar with as a former sheriff--
organized visits to prisons by juvenile delinquents with the 
goal of deterring them from future offending. However, instead 
of reducing crime, these programs actually increased the odds 
that participants will find themselves in trouble in the 
future. In fact, a comprehensive review of research by 
Washington State Institute for Public Policy estimated that 
every dollar spent on the program actually creates $76 in 
additional cost for taxpayers, crime victims, and the 
participants themselves because the youth who go through these 
programs are more likely to commit crimes in the future.
    This all suggests that more programs, including those in 
our jurisdiction, should be evaluated to ensure the families 
are receiving real help. Ultimately, Congress and the 
administration should fund what works so we can deliver better 
results to those in need. This is an issue that can and should 
be bipartisan as it is all about doing right by recipients and 
taxpayers alike.
    Last week the Obama administration hosted a full-day 
conference on funding what works, highlighting how the private 
sector is willing to work with government to ensure that 
programs are really making a difference. Especially given our 
current fiscal climate, it is important to ensure our resources 
are focused on efforts that have the greatest impact on those 
in need, and I am proud to say that my home State of Washington 
is a leader in this regard, as Steve Aos of the Washington 
State Institute for Public Policy will shortly tell us. We will 
also hear from experts from Utah and Texas, as well as national 
leaders, about what is being done and what more can be done to 
ensure that these programs are held accountable for producing 
real results. I look forward to all of your testimony today.
    Mr. Doggett, would you care to make an opening statement?
    Mr. DOGGETT. Thank you very much, Mr. Chairman, and thanks 
to all of our witnesses. I welcome this opportunity to discuss 
the programs and strategies that have proven to be most 
successful in helping our families escape poverty. Federal 
initiatives help raised 40 million Americans above the poverty 
line in 2011 under a comprehensive measure that counts all 
assistance known as the supplemental poverty measure.
    Taken as a whole, public policy is having an immense impact 
on the well-being of many of our least fortunate neighbors. 
This, however, still leaves the question of which specific 
approaches are most effective in achieving our objectives, and 
as we contemplate that question, I believe that the focus of 
this Subcommittee ought to be on the one program, the Temporary 
Assistance for Needy Families, that is within our jurisdiction. 
That ought to be our primary focus, especially since the TANF 
program is set to expire on September the 30th. We have very 
few legislative days prior to that time, with the Congress 
being out most of August and the beginning of September, and I 
would suggest we get about the work on that specific piece of 
legislation.
    I voted for the 1996 welfare reform law myself because I 
believe that helping people find a job is the best strategy to 
reducing poverty. But this premise hinges on two very important 
principles. First, assistance has to be available when jobs are 
scarce, as they have been until very recently; and, second, a 
real effort has to be made to help people find, maintain, and 
advance in employment. Any fair reading of the last decade of 
the TANF program finds it lacking on both counts. The 
percentage of poor single mothers who are working has been 
dropping almost consistently for the past 12 years, after 
having made significant progress in the mid and late nineties.
    Even more troubling, the percentage of poor mothers who are 
neither working nor receiving any assistance from TANF is more 
than twice as high as it was when TANF was established in 1996.
    Some of our colleagues often complain that our Federal 
programs are allowed to drift on autopilot. That seems to me to 
be accurate as it relates to TANF. This program is in real need 
of a significant reevaluation rather than this stop-start for 
brief periods approach that has been taken in recent years. 
Instead of working toward that goal, we spent most of the last 
year in this Subcommittee debating whether the administration 
was giving the States too much flexibility in the TANF program.
    For those who think that work requirements, stricter work 
requirements constitute a panacea on this issue, it is 
noteworthy that a number of States, including those that have 
Republican Governors, have complained that the current TANF 
work participation requirements really don't measure success. 
Rather than continue the same tired old arguments, our 
Committee can actively advance the debate on this issue by 
reviewing evidence on specific strategies that might help TANF 
recipients get and retain jobs. One promising approach is 
boosting both employment and earnings through sectoral training 
programs that target high-demand occupations and provide 
training and job search assistance to low-income individuals.
    Unlike some past training programs, these efforts are 
squarely aimed at preparing folks for job opportunities that 
exist in their communities. I look forward especially to having 
a native from Austin, Tara Smith, with the Ray Marshall Center 
at the University of Texas offer comments about the success 
that is reflected in Capital IDEA in Austin and Project QUEST 
in San Antonio that have shown real promise in helping people 
find not only jobs, but lasting careers. The Alamo Academies in 
San Antonio have taken this same successful sectoral employment 
approach and have partnered with high schools, community 
colleges, aerospace companies at Port San Antonio to provide 
specialized advanced manufacturing training.
    I have been out to meet with some of those students. They 
are impressive. They are high school students who complete the 
program and receive valuable credentials along with their high 
school diploma when graduating, and some are averaging a 
starting pay of over $30,000 out of school each year.
    Mr. Chairman, I look forward to a productive discussion 
about how these and other proven strategies might help us to 
improve outcomes for TANF recipients and other struggling 
Americans. Let's find a path forward toward our common goal of 
increasing employment and reducing poverty. Thank you very 
much.
    Chairman REICHERT. Thank you, Mr. Doggett. Without 
objection, each Member will have the opportunity to submit a 
written statement and have it included in the record at this 
point.
    I want to remind our witnesses, please, to limit their oral 
statements to 5 minutes. However, without objection, all of the 
written testimony will be made a part of the permanent record.
    On our panel this afternoon we will be hearing from Jon 
Baron, president, Coalition for Evidence-Based Policy; Kristen 
Cox, executive director, Utah's Governor's Office of Management 
and Budget; Steve Aos, director of Washington State Institute 
for Public Policy; David Muhlhausen, Ph.D. research fellow, 
Empirical Policy Analysis, The Heritage Foundation; and Tara 
Smith, research associate, Ray Marshall Center, Lyndon B. 
Johnson School of Public Affairs at The University of Texas.
    Welcome to all of you. Thank you for taking the time to be 
with us today. I will just let you know that you see three 
Members in front of you. Others are on the floor speaking on a 
bill, which I just came back from. That is why we started a 
little bit late. So we will have some other Members joining us 
here shortly.
    Mr. Baron, please proceed with your testimony.

STATEMENT OF JON BARON, PRESIDENT, COALITION FOR EVIDENCE-BASED 
                             POLICY

    Mr. BARON. Thank you, Mr. Chairman. Chairman Reichert, 
Ranking Member Doggett, and Congressman Davis, I appreciate the 
opportunity to testify before the Subcommittee on behalf of the 
nonpartisan, nonprofit Coalition for Evidence-Based Policy. My 
testimony will address how evidence-based program reforms can 
greatly increase the effectiveness of government social 
spending in improving people's lives.
    It is often assumed that the only way to increase 
government's impact on social problems such as poverty and 
educational failure is to spend more money, an assumption that 
conflicts with the current national interest in reducing the 
deficit. Largely overlooked, however, are clear examples from 
welfare and other areas where rigorous randomized trials, which 
as you mentioned, are widely considered the strongest method of 
evaluating program effectiveness, have identified program 
reforms that produced important improvements in people's lives 
while simultaneously reducing government spending.
    As an illustrative example in the eighties and nineties, 
government and foundations sponsored a large number of 
randomized trials of State and local welfare reforms. Three 
major reforms--two in California, one in Oregon--were found 
especially effective. They focused on moving welfare recipients 
quickly into the workforce through short-term job search, 
assistance, and training, and were found to produce gains in 
participants' employment and earnings of 20 to 50 percent 
sustained over several years.
    Importantly, they also produced net savings to the 
government in reduced welfare and food stamps of between $1700 
and $6,000 per person. These findings helped build the 
political consensus for the strong work requirements in the 
1996 Welfare Reform Act.
    A second example is in foster care where in the late 
nineties, HHS granted Illinois a waiver from Federal law to 
implement subsidized guardianship, which is an alternative to 
foster care in which the State pays a subsidy to the child's 
relative or foster parent to serve as their subsidized 
guardian, as their legal guardian.
    Illinois evaluated subsidized guardianship in a large 
randomized trial which, over a 9-year period, found that the 
program increased children's placement in a permanent home by 8 
percent, reduced their days in foster care by 16 percent, and 
produced net savings to the foster care system of about $2300 
per child. Based on those findings, CBO scored savings of $800 
million for Federal legislation that was enacted in 2008 to 
expand subsidized guardianship nationally. To identify enough 
of these reforms to generate broad-based improvement in 
government effectiveness will require strategic trial and 
error. In other words, rigorously testing many promising 
reforms to identify the few that are effective. The instances 
of effectiveness that I just described are exceptions that have 
emerged from testing a much larger pool.
    More generally, most innovations, typically 80 to 90 
percent, are found to produce weak or no positive effects when 
rigorously evaluated, a pattern that occurs not just in social 
spending, but in other fields where randomized trials are done, 
including medicine and business.
    In my testimony, I offer concrete suggestions for the 
Subcommittee's consideration to greatly accelerate the rate of 
program innovation and rigorous testing in social spending so 
as to grow the number of proven cost saving reforms like those 
I discussed. I suggest, for example, authorizing greater use of 
Federal waivers to stimulate State and local innovation and 
evidence building, which was a tool deployed with great success 
in welfare reform under both Republican and Democratic 
administrations. I also suggest steps this Subcommittee can 
take to facilitate greater use of low cost randomized control 
trials, such as the subsidized guardianship trial that I 
described earlier, which cost just $100,000 to conduct, yet 
identified an innovation that CBO scored as saving $800 
million. These suggestions are designed to catalyze evidence-
driven improvements in a social spending system that, in many 
cases, has fallen well short of its intended goals.
    The American poverty rate, for example, now at 15 percent, 
has shown little change, whether by official or the 
supplemental measures, the National Academy measures since the 
seventies. In K-12 education, reading and math achievement of 
17-year-olds, who are the end product of our K-12 system, is 
virtually unchanged over the past 40 years according to 
official measures, even though there has been a 90 percent 
increase in public spending per student, adjusted for 
inflation, since that time. Evidence-based policy offers a 
demonstrated path to more effective, less expensive government. 
Thank you.
    Chairman REICHERT. Thank you, Mr. Baron.
    [The prepared statement of Mr. Baron follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
    
    
        

                                 <F-dash>

    Chairman REICHERT. Ms. Cox, please.

 STATEMENT OF KRISTEN COX, EXECUTIVE DIRECTOR, UTAH GOVERNOR'S 
                OFFICE OF MANAGEMENT AND BUDGET

    Ms. COX. Thanks for having me here, Chairman and Ranking 
Member Doggett. It is an honor to be here. I am the executive 
director of the Governor's Office of Management and Budget, and 
prior to this position, I was the executive director of the 
Department of Work force Services. We oversaw the 
implementation and administration of over 90 different Federal 
programs, which included everything from TANF and food stamps 
to child care to housing, a plethora of services that impact 
low-income individuals. I come to this discussion with a real 
on-the-ground perspective in how you actually operationalize 
evidence-based practices and penetrate into the day-to-day work 
of our folks.
    Let me go through some of what we do and some things for 
you to think about. First of all, our goal in Utah is to 
improve the operations of all of our systems in Utah State 
government by 25 percent over the next 3-1/2 years, the 
remainder of Governor Herbert's administration. It is a bold 
initiative, but we think there is ample capacity in all of our 
systems to do better, and in social services, it really resides 
on integrating evidence-based practices into the day-to-day 
work of our employees, so they are spending more and more of 
their time doing what works, and less time doing the things 
that don't or are wrapped up in compliance initiatives, which 
is part of the Federal bureaucracy.
    A few things, just observations we have before we get into 
the evidence-based practices. One, there is significant goal 
disalignment against--across services that serve low-income 
individuals, so the ability to assess if a program has been 
successful or not is so dependent on the point and policy 
objective of the program that they are all over the place. For 
example, the Food Stamp Act 1964's intended policy objectives 
was twofold, to promote the agricultural economy, and to give 
nutritional sustenance to low-income individuals. With 
amendments, the ABAP program, employment and training services 
were offered, but really more as an eligibility criteria than a 
true strategy to move people to work. Add housing initiatives, 
TANF, Medicaid, across the board, the policy objectives are 
different, so when we really want to talk about the impact to 
low-income individuals, we need to be clear on what our 
intended purpose is, and we don't have that right now.
    Second piece of concern is the ability of measurement. We 
have too many contradictory and conflicting measures out there 
in the public service arena. As an administrator of 90 
different programs, trying to get clarity on how well I am 
doing is a challenge. We have created a very simple ratio, 
quality throughput divided by operating expense, which will 
baseline and drive all of our performance in State government 
in Utah. It is not so simple in the Federal navigation system 
of measurements, even in common core. In Utah, we were very 
aggressive about understanding how important evidence-based 
practices was. When I was executive director of Work force 
Services, we set up an evidence-based arm of our agency 
specifically to do randomized sampling, propensity scoring, 
everything we needed to know to analyze and assess TANF 
participation, job training, does it work or not, but what we 
found is what the national studies say on a very universal 
level aren't necessarily true for the unique demographics in 
Utah. Even within Utah, we saw variations from region to 
region.
    So while evidence-based practices at the national scale are 
important to help direct Federal policy, the States need the 
ability, flexibility, and resources to create that same ability 
at the local level to really fine-tune and penetrate those 
evidence-based practices into our system.
    The next piece is penetrating evidence-based practices into 
our operations. It is great to have theory, it is great to have 
tons of data, you can Google and you can find hundreds of 
social service evidence-based practice reports, but why aren't 
they penetrating our system? Part of it is our folks are so 
heavily focused on compliance activities that they don't have 
the time to step back and think about what should we be doing. 
It is not an excuse, but it is a reality for people. 
Operationalizing takes the ability to translate global goals 
into the day-to-day work of our employees, it requires that we 
have clear policy objectives for them, it really requires that 
we stop doing the stuff that doesn't work and start doing what 
does. My hope is for every new policy initiative Congress puts 
out, they eliminate another one. There is only 8 hours in a 
day, it is the employee's biggest constraint. If you want them 
to really spend 80 percent, 90 percent of the time that makes 
the biggest difference, then we have got to strip away the 70 
percent of the stuff that is junk.
    A few suggestions or hopes or recommendations. A lot of 
demonstration projects are going on at the national level. 
Fantastic. Push some of those resources to the State level so 
we can customize our own practices that we need to make it 
relevant for us. Align the policy objectives, which is simple. 
Not simple, but critical. Simplify the measures, as you said so 
well, give States more flexibility in the ability to innovate, 
hold us accountable, but give us the ability to be innovative. 
Thank you very much.
    Chairman REICHERT. Thank you, Ms. Cox.
    [The prepared statement of Ms. Cox follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
    
    

                                 <F-dash>

    Chairman REICHERT. Mr. Aos.

 STATEMENT OF STEVE AOS, DIRECTOR, WASHINGTON STATE INSTITUTE 
                       FOR PUBLIC POLICY

    Mr. AOS. Mr. Chairman, Members of the Committee, my name is 
Steve Aos, and I am the director of the Washington State 
Institute for Public Policy. You asked me to come today and 
provide testimony on how the Washington State legislature, 
another legislative body, is using the Institute to try to 
reform public policies in the State of Washington, so I am 
going to give a little bit of an overview of the Institute and 
how the legislature uses it and then talk about some of the 
specific applications of the approach in Washington.
    The Institute was created 30 years ago in 1983. The 
legislature passed a joint resolution in that session and said 
we want to have an institute to help the legislative branch of 
government figure some things out. The key aspect of the 
Institute is that all of the assignments to us, including the 
ones I will talk about today, come to us because the 
legislature passes a study bill, goes through both Houses, 
passes both Houses, and is signed by the Governor. We don't 
respond to an individual Member's request, but a bill has to go 
through and pass for it to have a study undertaken. And in 
recent years what the legislature has been asking us to do, in 
about the last 15 years, is to find out what works and what 
doesn't work to achieve particular public policy outcomes. So 
we will get a direction that will say how can Washington public 
policy affect the crime rate in Washington State, or the rate 
of child abuse and neglect, or how can we get greater high 
school graduation levels in Washington State, and it will say 
to the Institute, tell us what works and what doesn't to 
achieve those outcomes.
    It is a nonpartisan group, an equal number of Republicans 
and Democrats are on our board of directors, and they are 
cochaired by one Republican and one Democrat at all times, so 
it was set up to be a nonpartisan group, and that is how we 
operate.
    What works and what doesn't work has been something that 
the legislature has been finding particularly attractive in 
learning how to do the numbers on the one hand and the 
legislative process has been learning how to use the numbers to 
actually craft budgets and policies in an increasing number of 
important areas. When we do this work, when we get that 
assignment to say what works, we are playing the role of the 
investment adviser, if you will. We make buy and sell decisions 
to our legislature, and we look all around the country and all 
around the world at all of the most rigorous evaluations on a 
given topic. We throw out evaluations that we think aren't 
rigorous enough to warrant any further consideration, and then 
we assess all that in a systematic way, and we do a cost-
benefit analysis, and we come back to our legislature saying 
this thing looks like it is a winner, this thing is maybe iffy, 
and this thing looks like a loser in terms of benefit cost.
    You mentioned the Scared Straight program in your opening 
remarks. We have got lots of losers. We love to find losers 
because then if we are already funding those kinds of programs 
in Washington, they have become things that we can then cut in 
terms of programs that are ineffective. So that is the role 
that the legislature has had us do consistently over time. The 
hallmark of our work has been to take not only what works but 
actually to do a benefit-cost analysis of each of those of that 
effort.
    Crime policy has been the area where we have moved it the 
furthest, but we are moving ahead in K-12 education and child 
welfare and some of the topics that are directly before this 
Committee right now. We now actually can point to lower crime 
rates in the State of Washington and the reduced level of 
taxpayer spending in the State of Washington as a result of all 
that work and all the previous budgetary decisions that have 
been made from that work.
    The latest approach in Washington, passed unanimously in 
the last two sessions, has been to take the Institute's list of 
what works and what doesn't work and send a message to the 
executive agencies saying align everything that you do and tell 
us what approximates the Institute's list and what isn't on the 
Institute's list, and those reports will then come back to the 
legislature from the executive agencies in about five or six 
different areas of public policy. So this is the legislature's 
attempt to try to take the information we have been doing and 
actually craft budgets around it by giving the executive branch 
a time to respond, saying are you doing things that the 
Institute has found to work or not work.
    Mr. Chairman, I just wanted to give an overview today about 
how the legislature back in your home State has been using this 
information. By the way, it is 68 degrees back in your home 
State today, I just checked. I am happy to get back there in a 
few hours. It is real progress. Session by session, we get 
better and better at doing the work, the legislature gets used 
to asking the question and taking the information back, and it 
is a nonpartisan effort, that is the thing that is perhaps most 
encouraging. Thank you for allowing me to testify.
    Chairman REICHERT. Thank you. I think 68 is the humidity 
level here in DC. if I am not mistaken. At least.
    Thank you for your testimony, Mr. Aos.
    [The prepared statement of Mr. Aos follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]       
    
    
    
    

                                 <F-dash>

    Chairman REICHERT. Thank you, Mr. Muhlhausen, for being 
here, and you are up for 5 minutes.

   STATEMENT OF DAVID B. MUHLHAUSEN, PH.D., RESEARCH FELLOW, 
       EMPIRICAL POLICY ANALYSIS, THE HERITAGE FOUNDATION

    Mr. MUHLHAUSEN. Thank you. My name is David Muhlhausen, I 
am a research fellow in empirical policy analysis in the Center 
for Data Analysis at The Heritage Foundation. I thank Chairman 
Reichert, Ranking Member Doggett, and the rest of the Committee 
for the opportunity to testify today on the need to evaluate 
Federal social programs. The views I express in this testimony 
are my own and should not be construed to represent any 
official position of The Heritage Foundation. My testimony is 
based on my recently published book, Do Federal Social Programs 
Work?
    My spoken testimony will focus on three points: First, the 
best method for assessing the effectiveness of Federal social 
programs is large-scale, multi-site experimental impact 
evaluations that use random assignment. Unfortunately, these 
scientific rigorous assessments are rarely done. From my count, 
only 20 large-scale multi-site experimental impact evaluations 
assessing the effectiveness of 21 Federal programs have been 
published since 1990.
    The consequence of so few Federal social programs being 
rigorously assessed means that Congress has no credible 
information on the performance of the majority of social 
programs. To solve this problem, Congress should specifically 
mandate the multi-site experimental evaluation of these 
programs. When Congress creates social programs, the funding 
activities are intended to be spread out across the Nation. For 
this reason, Federal social programs should be assessed for 
national effectiveness. While an individual program operating 
at a single site may undergo an experimental evaluation, the 
small scale single site evaluation would not inform Federal 
policymakers of the general effectiveness of the broader 
national program.
    The success of a single program that serves a particular 
jurisdiction or a population does not necessarily mean that the 
same program will achieve similar success in other 
jurisdictions or among different populations, thus small-scale 
evaluations are poor substitutes for large-scale multi-site 
evaluations. A multi-site experimental evaluation that uses the 
performance of a program operating in numerous and diverse 
settings will produce results that are more informative to 
policymakers.
    Second, the Federal Government does not have a good record 
of replicating successful social programs on a national scale. 
Policymakers and advocates often assume that a social program 
that is effective in one setting will automatically produce the 
same result in other settings. This is a faulty assumption. For 
example, for the Center for Employment Training replication, 
the Federal Government attempted to replicate the successful 
outcomes of a youth job training program in San Jose, 
California, in 12 locations throughout the United States. A 
multi-site experimental evaluation found that the Federal 
Government was unable to replicate the successful outcomes in 
these other settings. Just because an innovative program 
appears to have worked in one location does not mean that the 
program can be effectively implemented on a larger scale.
    Third, policymakers should be mindful that Federal social 
programs do occasionally produce harmful impacts on recipients. 
However, social program advocates too frequently ignore these 
findings. Nevertheless, Congress should be aware of these 
harmful impacts. Here are two examples. From the 3-year-old 
cohort of the Head Start Impact Study, kindergarten teachers 
report that the math abilities of children given access to Head 
Start were worse than similar children not given access to Head 
Start.
    Students participating in educational, after-school 
educational activities under the 21st century Learning Centers 
Program, were more likely to have disciplinary and behavioral 
problems such as getting suspended from school. Further, they 
were less likely to achieve at high levels in class and were 
less likely to put effort into English classes. With the 
Federal debt reaching staggering heights, the best method for 
assessing the effectiveness of social programs and making sure 
that money is spent wisely are large-scale multi-site 
experimental evaluations, yet to date, this method has been 
used in only a handful of Federal programs. Congress needs to 
reverse this trend of not rigorously evaluating Federal social 
programs. Thank you.
    Chairman REICHERT. Thank you, Mr. Muhlhausen.
    [The prepared statement of Mr. Muhlhausen follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
    
    

                                 <F-dash>

    Chairman REICHERT. Ms. Smith, you are recognized for 5 
minutes.

   STATEMENT OF TARA SMITH, RESEARCH ASSOCIATE, RAY MARSHALL 
    CENTER, LYNDON B. JOHNSON SCHOOL OF PUBLIC AFFAIRS, THE 
                      UNIVERSITY OF TEXAS

    Ms. SMITH. Thank you. Good afternoon, Chairman Reichert, 
Ranking Member Doggett, and Members of the committee. My name 
is Tara Smith, I am with the Ray Marshall Center for the Study 
of Human Resources at the University of Texas at Austin's LBJ 
School of Public Affairs. Thank you for inviting me today.
    This hearing's focus on families coincides with a growing 
body of research on two-generation programs designed to link 
services for children and parents so that families as a whole 
can build the human capital they need to succeed in school and 
the labor market. Today, I would like to share findings and 
lessons learned from evaluations of two such programs.
    Capital IDEA is a sectoral-based training program in 
Austin, Texas, that was built on a model pioneered by Project 
QUEST in San Antonio for employer-driven work force 
development. Capital IDEA provides training primarily in health 
care for low-income and disadvantaged adults. The evaluation 
tracks participants from 2003 forward and includes outcome, 
impact, and ROI analyses. CareerAdvance is a career pathways 
program in Tulsa, Oklahoma, which provides parents of Head 
Start and early Head Start students with training for health 
care occupations. This program launched in 2009, and the 
evaluation includes an implementation study as well as outcome 
and impact studies focused on parents and children.
    The impact evaluations for both programs use quasi-
experimental research methods based on a carefully matched 
comparison group. There are five key points I would like to 
emphasize about these evaluations. First, rigorous quasi-
experimental methods have been found to produce impact 
estimates similar to those found in random control trials. 
Quasi-experimental methods also address issues such as the 
localized nature of programs which limits the pool of 
prospective and eligible applicants needed to support a random 
control trial.
    Second, the use of administrative records and propensity 
score matching techniques helps to keep evaluation costs 
reasonable. In both evaluations State UI records provide 
consistent, comprehensive, and inexpensive data on employment 
and earnings. For Capital IDEA, the comparison group is drawn 
from individuals who receive job search assistance at a local 
one-stop career center and who closely resemble participants 
along 18 characteristics, including demographics and prior 
employment and earnings history. For CareerAdvance, the 
comparison group is drawn from other Head Start parents matched 
along multiple characteristics, including a documented interest 
in pursuing further education and training. The rigor of the 
comparison group matching design undergirds our confidence in 
the evaluation findings.
    Third, sectoral and career pathway models have demonstrated 
effectiveness in a number of industries and labor markets by 
connecting low-income and low-skilled adults with the training 
they need to enter higher paying careers. If you have my 
written testimony in front of you, the chart on page 3 shows 
our most recent findings from Capital IDEA. We find that on 
average the earnings of participants continue to grow over time 
while comparison group Members who receive only job search 
assistance or other basic work force services tend to have 
relatively flat earnings.
    My fourth point is that two-generation strategies which 
look to build on sectoral or career pathway programs by linking 
those adult education and work force training services with 
high quality educational opportunities for children show 
promise. Wrap-around and family support services including 
child care, transportation assistance, counseling, and other 
resources ensure that participants in both generations receive 
the help they need to achieve at a high level.
    In CareerAdvance this support can include a monthly 
financial incentive for performance and attendance to help 
offset the costs of participation and provide some financial 
stability for the family.
    Finally, because social programs rarely involve cookie 
cutter approaches, it is important to consider a broad base of 
evidence when evaluating program effectiveness. Implementation 
and process evaluations provide important context for 
understanding how programs operate and identifying which 
services may lead to better outcomes and impacts over time. 
This is particularly true for new and emerging programs and 
program replication efforts.
    In conclusion, strategies that focus on basic skills which 
provide counseling and other support services, which increase 
opportunities to earn and learn so that parents can support 
their families while in training and target skill development 
at high wage, high demand occupations in the local labor market 
all appear to have significant rigorous evaluation support and 
could be promoted in Federal programs.
    By investing in proven approaches and promising strategies, 
such as two-generation initiatives, and supporting a broad 
range of research and evaluation efforts on those investments, 
the Federal Government can play an integral role in building 
the knowledge base needed to expand and improve efforts to move 
families out of poverty. Thank you.
    Chairman REICHERT. Thank you, Ms. Smith.
    [The prepared statement of Ms. Smith follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]      
    
    
    
    

                                 <F-dash>

    Chairman REICHERT. And for your information, panelists, now 
is the question-and-answer phase, so I am sure the Members on 
the Committee would like to ask a few questions. I will start 
with Mr. Baron. In your testimony, you note the important 
groundwork laid for welfare reform when high quality 
experiments were conducted in the eighties and nineties to find 
the best way to help people move from welfare to work. In fact, 
this research helped shape the successful 1996 reforms which 
created TANF.
    Beyond TANF, however, the Subcommittee oversees other 
programs that haven't benefited from the type of 
experimentation and high quality evaluation that led to welfare 
reform. Given where we are now, in your opinion, what should we 
be focused on first? What would be our number one priority, and 
is this just the first thing we need to focus on and are there 
any other priorities that kind of fall off of that? I would be 
interested in hearing that.
    Mr. BARON. Thank you. One of the reasons why there is such 
a large body of strong, in many cases, replicated evidence from 
randomized trials in Welfare-to-Work is because the Federal 
Government had in place for many years, starting at the end of 
the Reagan administration through the first Bush 
administration, and then into the Clinton administration, a 
waiver evaluation policy, meaning the Federal Government said 
to the States, we will allow you to do your own welfare reform 
demonstrations. We, the Feds, will waive provisions of law and 
regulation to allow you to do those reforms if, and here was 
the quid pro quo, you do a rigorous evaluation, usually a 
randomized evaluation, to determine whether it works or not. 
That policy, that waiver evaluation policy resulted in more 
than 20 large-scale randomized control trials that contributed 
to the important body of knowledge, the evidence that helped 
inform the work-focused 1999 Welfare Reform Act.
    That kind of waiver-evaluation approach could be used in 
many other programs. The same general concept, it would have to 
be adapted, it could be used in unemployment insurance, in 
foster care, in SSI, and disability insurance, and other areas 
to allow State and local innovation, open the door fairly wide, 
coupled with a requirement for rigorous evaluation to determine 
which of those innovations really work and which do not.
    That is something that--and also importantly, as in 
welfare, with a requirement for cost neutrality, so that you 
are testing innovations that are designed to improve people's 
lives while not adding to the deficit or that are cost saving 
while also improving people's lives or not causing any harm.
    Chairman REICHERT. Appreciate that. Thank you.
    Ms. Cox, you describe how Utah has a specific division in 
the Department of Work force Services focused on building 
evidence about the effectiveness of programs. What did you find 
most difficult about measuring effectiveness? I am going to 
guess one of the things was the disalignment piece that you 
spoke about.
    Ms. COX. Uh-huh.
    Chairman REICHERT. How did you use this information to make 
decisions about which programs were managed and funded?
    Ms. COX. Well, you know, I have the same question I think 
you raised earlier, do job training programs work or not? I had 
heard a lot of the literature, just like you had, but we wanted 
to test it in Utah. So we did a really rigorous assessment 
longitudinal, we did the whole randomization, and looked at--
this is just one of the studies, for example, in job training, 
did it make a difference or not. The bigger question was 
sometimes, and what the type of job services that were 
delivered and when.
    So we found, for example, unpaid internships really didn't 
work, paid internships didn't work in all parts of the State 
except for one place, so it was replicating why that worked. We 
found that occupational training tied to an employer did work.
    So there are things we found that did and didn't work, but 
the interesting thing we found, for example, is that when they 
completed the training was a big variable. We had too many 
people, 50 percent of our folks coming into the job training 
program, starting it, stopping halfway through or a third of 
the way through. The taxpayers lost the up front cost, and the 
person doesn't get the benefit, so it really forced us to look 
at new strategies on completion. Same thing with TANF 
participation. What things do people tend to participate in 
without us having to chase paperwork. They tended to be 
employment related and things that related to their lives and 
then which of those ended up helping them become self-
sufficient and moving to jobs. We were able to more narrowly 
tailor what kind of participation activities we focus on. The 
challenges are, there is not a budget, there is not an 
appropriation in these Federal programs. Like I said, 80 
percent of our budget at Work force Services was Federal. It 
wasn't a set-aside amount of money saying, here, do evidence-
based practices, it is something we had to kind of internally 
create and cobble together some funds for that to happen, and 
there is not an appropriation directly for that. That funding 
piece is a challenge because while we talk at this level, and 
you guys have to make those decisions because you have such a 
huge impact on the Nation, once you get into the operational 
level, people kind of may not take it as seriously, and there 
is not a requirement or mandate with some cases like this for 
that to really happen. As we go now, a look at all the other 
services in State government will be doing the same thing.
    Chairman REICHERT. Thank you for that answer. My time has 
expired, but I am going to ask Mr. Aos a quick question because 
I know he has to leave and catch an airplane here in a few 
minutes. Could what you do in Washington State be replicated at 
the Federal level, and what are some of the key challenges we 
might have to overcome here in the Capital to do so?
    Mr. AOS. Mr. Chairman, I have worked in the State capital 
of Washington for 36 years, so I know that place pretty well. I 
don't know this place very well, so I am not going to be the 
one to give you advice on can what be done in Washington State 
be transferred to Washington, DC. I think the principle is that 
it works so well in Washington State is that the request for 
this information is bipartisan. We rarely get a demand for a 
study that only comes from one party or the other. It is almost 
unanimous votes, that they want to find out what reduces crime 
or what gets more high school graduates.
    The other thing that we have done then is that the rigor 
with which we as the people that draw the information go 
through to assess the evidence fairly and to use return on 
investment analysis to rank options because you can find things 
that work that cost an awful lot more money than the benefits 
they derive, so it is that aspect.
    And, then, finally, I would just add that we use that 
evidence to cut programs in addition to add programs that work, 
and I think that that message that the legislature is using 
evidence to change budgeting up and down has resonated around 
and causes actions and responsiveness to the notion so that 
evidence-based doesn't mean just a code word for spend more 
money.
    Chairman REICHERT. Thank you for your answer. Mr. Doggett, 
you are recognized.
    Mr. DOGGETT. Thank you, Mr. Chairman. Mr. Aos, I notice in 
your evaluation it looks like as far as child welfare is 
concerned that the Nurse Family Partnership, the visiting nurse 
program for low-income families, is way out on top as being the 
most cost-effective program.
    Mr. AOS. Yes, it is right near the top of our list. I think 
it is also a buy recommendation from Jon Baron's group as well.
    Mr. DOGGETT. Exactly. Thank you. I wanted to ask him also, 
what is it about this program that seems to have the most 
benefit?
    Mr. BARON. The program is very well designed in the 
following sense: It is for women who are poor, pregnant with 
their first child, and most of them are single. They are 
visited by a nurse, many of them--you know, they are pregnant 
with their first child, they are concerned about their health, 
so they are particularly receptive to advice from a nurse. The 
nurse teaches them basic parenting, nutrition, not to smoke or 
drink during pregnancy. If they are interested in practicing 
birth control, how to do it effectively. One of the reasons 
this program is on the top of Steve's list and the top of our 
top tier panel's list is that it has been evaluated in three 
different randomized control trials, in different cities, 
different ethnic groups, actually different decades.
    In all three cases, it was found to produce large 
improvements in life outcomes including, for example, a 40 to 
50 percent reduction in incidents of child abuse and neglect 
and hospitalization.
    Mr. DOGGETT. You are aware that the Federal funding for 
that program expires in little more than a year, the Federal 
Home Visiting Program. Do you favor its extension?
    Mr. BARON. Definitely. In many Federal social programs, 
evidence plays little role in how funds get allocated, whether 
they are formula programs or even most competitive grant 
programs. The evidence-based home visiting program is an 
important exception to that. Evidence, especially for the 
largest grants plays a central role in determining what gets 
funded.
    Mr. DOGGETT. Thank you very much.
    Ms. Smith, let me talk to you about another innovative 
program that you focused on with Capital IDEA and Project 
QUEST. This is not only about just securing any job that is 
there, but as you mentioned a career pathway so that a person 
has hopes of not only getting a job but getting a job that will 
help them support their family at a livable wage. As I 
understand the program, again, it is not just about how you 
have become a radiology technician or someone who works in 
semiconductors, but it is about getting some counseling to go 
along with that training to be sure that you are able to 
fulfill all the responsibilities. Can you elaborate a little on 
how those programs work?
    Ms. SMITH. Yes. The Capital IDEA model provides the 
occupational training as a connection with the associate degree 
program or community college program that builds that 
occupational skill, but they also work on building the soft 
skills that are important in the workplace and make someone a 
successful employee, and so through weekly sessions with a 
career coach, participants go through and talk about issues 
like time management, communication and interpersonal 
relationship skills, and work on building kind of some self-
confidence that they can take into the workplace and make sure 
they are going to be a valuable employee.
    Mr. DOGGETT. And how might those programs interface with 
TANF? Is there the potential to assist more TANF recipients, 
but to help them achieve some of the same success that Capital 
IDEA and Project QUEST are already achieving?
    Ms. SMITH. Certainly. Actually both of those programs, as 
well as the Career Advance program in Tulsa, serve TANF 
recipients already. They are part of that low income and 
disadvantaged group that these programs are explicitly trying 
to move forward in the workplace.
    Mr. DOGGETT. Are there other recommendations that you have 
that we should consider as we are renewing and reauthorizing 
the TANF program to assure that more economically disadvantaged 
people actually move into living wage jobs?
    Ms. SMITH. Yes, I think reconsidering the work requirements 
to allow individuals to engage in that longer term intensive 
skill development that has been shown to lead to higher paying 
careers that actually move people out of poverty would be an 
important change to consider. The emphasis on work first with a 
very short term emphasis on job achieving skills hasn't been 
shown to be effective in the same way that building an 
occupational credential that employers value has.
    Mr. DOGGETT. And, Ms. Cox, isn't that also the finding of 
an analysis in Utah that was made last year, that work first is 
not necessarily as important as the training activities?
    Ms. COX. Actually, I don't think it is either/or. I think 
it is short-term occupational training that is connected to an 
employer, so I think it is bridging both of those worlds. We 
know that connection to the labor force over time is an 
important indicator based on what we saw, and I can't speak for 
other States, but for long-term--after 4 years there were 
retained earnings and increased earnings.
    So there is a balance. For men, for example, their 
struggles seem to be a little bit different. There is not a lot 
of men in TANF, but our population has gone from 6 percent to 
13 percent. Men in TANF often have criminal background issues. 
Sometimes they need to get attached to the labor market quickly 
so they can reengage. Most of our TANF recipients get off--70 
percent are off between 2 and 9 months--so this long-term thing 
isn't as critical as maybe for the folks in the 30 percent who 
don't have a high school diploma.
    So I am always really cautious of this one-size-fits-all 
and the need to really let States give us the policy 
objectives, the goal of the outcome. Do the evidence-based 
practices at the national level, but States need to customize 
it for their unique demographics.
    Mr. DOGGETT. Thank you all.
    Chairman REICHERT. Thank you, Mr. Doggett. Mr. Renacci, you 
are recognized.
    Mr. RENACCI. Thank you, Mr. Chairman. I want to thank the 
witnesses for testifying today. In my home State of Ohio, an 
estimated 1.8 million Ohioans are living below the poverty 
line. Poverty in my home State of Ohio has increased by 
approximately 58 percent over the last decade despite a 
stagnant population and a whole host of Federal programs 
created to end the cycle of poverty. So I am glad that we are 
here today to discuss policies that work because, frankly, the 
people of Ohio and the Nation cannot continue on this path. We 
must find ways to address our struggling economy, improve our 
education system and work force training programs, and connect 
individuals to temporary resources they need to succeed.
    With that in mind, and I would like to start with you 
first, Ms. Cox, what should the Federal Government's role be in 
social welfare? And to add on to that, should the Federal 
Government incentivize States to focus on outcome-based 
programs and should funding to States be tied to performance? I 
know you talked a lot about your State and maybe funding toward 
the State.
    Ms. COX. Well, again, you know, our goal is, even within 
the State of Utah, 25 percent improvement over the next 3\1/2\ 
years, and some State agencies are saying that is impossible, 
but when we get into the guts of the systems we are seeing 
there is a lot of capacity there. Having said that, I am all 
for outcomes and results. It is taxpayer dollars, and we need 
to be accountable. My preference is that we are held 
accountable and then given the flexibility to design the 
solutions that work. We spend a significant amount of time and 
energy on demonstration projects at the national level and 
pilot projects, and we at the State just need the flexibility. 
We have people at our doorstep today. I don't have 5 years to 
do a demonstration project. You guys can and give me what I 
need. I need the outcomes and the flexibility to get the 
results today for the people standing on my doorstep.
    So we need that, and then we also really need to emphasize 
with States that they, too, need to be held accountable for 
results, and in many cases, they need to pay more attention to 
evidence-based practices and not just do what feels good.
    Mr. RENACCI. So, in general, you believe that States should 
be given the dollars but there should potentially be incentives 
tied to those outcomes, and it should be outcome based?
    Ms. COX. I would be open--the devil is in the details, or 
God, depending on which way you say it, so it would depend on 
the program and how it was specifically designed, but it is 
something I wouldn't be scared of.
    Mr. RENACCI. Anyone else want to take a stab at that, what 
the Federal Government's role should be? Mr. Baron?
    Mr. BARON. Yes, I think one of the challenges here with 
holding States accountable and so on is that at this point we, 
meaning the country really, and researchers and policy 
officials really don't have a whole lot of strong evidence, 
replicated evidence, as David referred to, about what works. A 
lot of times. So there is not----
    Mr. RENACCI. But if, in Ohio, we have approximately 58 
percent over the last decade has increased, you know, something 
is not working.
    Mr. BARON. Yes. The system is not working, meaning over 
time, and it is true nationally, even since the early 
seventies, the poverty rate across the United States by various 
measures has not changed a whole lot, despite a whole lot of 
innovation, a whole lot of things going on. What is lacking, I 
would suggest, are interventions like the Nurse Family 
Partnership we discussed before, where the strong evidence that 
has been replicated across different sites that they work. So 
as a first step doing the kind of innovation and coupled with 
evaluation designed to grow the number of proven programs might 
be paramount. In the few cases where there are proven 
approaches like the Nurse Family Partnership, just try to scale 
those up more widely.
    Mr. RENACCI. Let me change the pace to outcome because I 
know as a small businessowner before I got here, I set programs 
up and then I looked at the outcomes and decided if they 
weren't working we would change those programs. So we have 
programs that aren't working. What are some of the consequences 
of leaving in place government programs that do not work? I 
mean, why are we leaving these in here? Are you saying that we 
don't have the outcomes yet? I mean, there are certain things 
that aren't working. What are some of the consequences of 
leaving those programs still intact? Mr. Muhlhausen.
    Mr. MUHLHAUSEN. Well, one of the consequences is that we 
waste billions of dollars and we leave people with no hope, and 
so I think we need to--when we look at programs, especially 
programs that are trying to lift people out of poverty, are the 
comprehensive effect of various programs, are they trapping 
people in poverty? So if someone who is receiving TANF 
benefits, food stamps, and also a housing subsidy, if they get 
a job and increase their earnings so they get a chance to work 
more hours, will their income increase cause them to lose their 
housing subsidy? In that case, that is an incentive not to gain 
the additional experience, not to gain the additional income 
through your own labors. So in some sense, the combined effect 
of our entire welfare system can create a trap for individuals.
    Mr. RENACCI. Thank you, Mr. Chairman, I yield back.
    Chairman REICHERT. Mr. Davis.
    Mr. DAVIS. Thank you very much, Mr. Chairman. I want to 
thank all of the witnesses for coming.
    I know that the Ranking Member has raised a question 
relative to the home visiting program, the nurse visiting in 
program. And I couldn't help but smile because I recall that 
when we were working on the Affordable Care Act that one of the 
provisions that I supported very strongly, and actually secured 
a woman to come and testify from the Near North Health Corp. 
which is a community health center in Chicago. And I run into 
her quite frequently. And I always tell her whenever I do that 
she was very instrumental in helping us to include that program 
in the Affordable Care Act. And so I was very pleased to hear 
your analysis and the impact of it.
    Let me ask, when programs like that, for whatever the 
reason, are not reauthorized, are not refunded, does that take 
away or detract from progress that is being made relative to 
not only moving people out of poverty, but also in helping them 
improve the health status of people and communities that they 
benefit?
    Mr. BARON. Congressman, funding of the Nurse Family 
Partnership, which incidentally was launched as a pilot program 
under the Bush administration--proposed by the Bush 
administration, and then scaled up by the Obama 
administration--that funding, there is strong replicated 
evidence that it improves people's lives. So defunding it 
presumably would do the opposite. But I would also note that 
the detail is in the specific type of home visiting program.
    The Nurse Family Partnership has been shown effective, but 
there are many other types of home visiting programs that have 
been shown not to work. There was a Federally sponsored 
evaluation, the Comprehensive Child Development Program at HHS 
in the nineties, which was a paraprofessional home visiting 
program. There was a large randomized demonstration that found 
no impacts.
    So one of the unique things about the program that was 
enacted is that it had a high evidence standard so that 
specific home visiting models, like the Nurse Family 
Partnership, received priority for funding. That is unique in 
Federal social spending.
    Mr. DAVIS. Thank you very much. I really appreciate that 
kind of work, having been engaged not only in health care but 
also in aspects of dealing with poverty and poverty-stricken 
people and communities for a long period of time. I just find 
that to be incredible work.
    Dr. Muhlhausen, let me ask you, if I could--I go through 
the list of different kinds of programs. And I just looked at 
Supporting Healthy Marriages. Do you have any revelations on 
the impact of a program like that, or that specific program?
    Mr. MUHLHAUSEN. Well, there are two programs, Building 
Strong Families and Supporting Healthy Marriages. And I think 
the goal is noble. But both of these evaluations show that both 
programs failed to affect the rate of marriage. So that, 
considered that in that sense, the program is a failure. In the 
case of the Building Strong Families case, the program actually 
had some negative impacts. But you have to balance that 
between, if you look at the site-by-site analysis, on the local 
level in some cities, the program had consistent negative 
effects; but in Oklahoma, while it didn't boost marriage, it 
actually found some positive impacts on the marital 
relationships of individuals participating.
    So you have to learn what happened in Oklahoma but 
systematically, when you look at the entire program, there is 
not much success.
    Mr. DAVIS. And I think that is so unfortunate because I 
think that marriage does play a significant role in the 
ultimate organization and development of our society. And many 
of my friends and many people that I interact with don't have 
much faith in it, I believe. Thank you very much.
    Chairman REICHERT. Thank you, Mr. Davis. Mr. Reed.
    Mr. REED. Thank you, Mr. Chairman. Thank you to our 
witnesses.
    Ms. Cox, I wanted to start with you and move to a couple of 
other people on the panel. I am very interested in us starting 
our conversation as we go down this path of TANF reform and 
other reforms as to coming to a common understanding as to what 
the definition of ``it works'' is. And I want to have a clear 
understanding from the panel as to--especially you, Ms. Cox--
out in the field, on the frontline, in the States. How is it 
presently defined to be ``a success'' under these programs? I 
have heard things such as getting people out of poverty. It is 
as easy as defining people who get the benefits, who actually 
receive a check. So I just want to get clarification from you 
on that. And then if you have any guidance or recommendations 
as to what is a good working definition of defining success.
    Ms. COX. It is a really great question, because we talk 
about it in such broad terms, self-sufficiency and moving 
people out of poverty. But what do we mean by that? TANF--in 
Utah, is 50 percent of poverty level. Food stamps has a 
different eligibility criteria. Medicaid now we know with the 
ACA reform is going to take you to up 130 percent plus. So at 
what point does the Federal Government mean ``out of poverty'' 
because there are so many different contradictory definitions 
of what that means. In Utah, again, with over 90-plus programs 
for TANF, our definition for quality is throughput divided by 
operating expense so we can get a quality cost per case. It is 
the number of positive closures we have, the percentage of 
those that are placement and employment, right? Because 
sometimes it is so easy for a State to say, oh, they got 
married, they got Social Security. We want to focus on 
employment because we know in the long term, that 4 or 5, 6 
years down the road, that gives them a better chance at self-
sufficiency divided by those costs. We can hit that. That is 
step one. But if our entire caseload of people who are on low-
income services--our TANF caseload is a drop in the bucket. We 
spent a lot of time on TANF. But in our State, it is 6,000 to 
10,000 of cases--that is not individuals--and our entire 
caseload is more like 200,000.
    So the broader question is what is the policy objective for 
Medicaid, for food stamps, for child care? Because if we don't 
drive those policy objectives, TANF isn't going to move the 
whole system. TANF has been a success. We know in the last 16 
years, caseloads have declined almost by 50 percent. We can 
continue to improve it. We know that. I can get people off of 
TANF. But moving them off food stamps and Medicaid into true 
self-sufficiency, that is a much broader public policy agenda 
that has yet to be defined. So for us, it is benefit. Their 
case is closed. They are off benefits. And they have a job. 
That is the ideal scenario for us.
    Mr. REED. That is the ideal. Okay. Mr. Muhlhausen.
    Mr. MUHLHAUSEN. I think one thing we need to think about is 
policy significance versus statistical significance. We like to 
come here, and especially me, we like to talk about statistical 
significance, a particular program, boost the wages up let's 
say a head of the household by $1,000 every year. This finding 
was statistically significant. Well, what is the policy 
significance of that? That additional $1,000, does it 
necessarily raise that family above, say, the poverty level?
    So sometimes these programs we are talking about are 
actually--while they do have a positive impact, and I can say 
statistically significant, meaning we believe the results 
actually occurred and were reliable. But sometimes the size of 
the effect is actually not that meaningful as far as changing 
the individual's life. So I think we need to think about not 
only statistical significance, but also policy significance. Is 
a program, let's say, moving somebody above the poverty 
threshold? And are they on a trajectory where they are not 
going to be dependent on receiving future government services?
    Mr. REED. Go ahead, Ms. Smith. Please.
    Ms. SMITH. I think a standard way of looking at whether you 
are making a difference for families is, are they in stable 
employment with rising earnings? That is what lifts families 
out of poverty. And it has been shown to have a really positive 
impact on the children of those families as well. They do 
better when they have that sort of financial security.
    Mr. REED. I am getting--because I am running out of time 
and I don't mean to cut you off.
    I am getting consensus from the panel that having a simple 
definition of, we are going to have x number of dollars or x 
number of benefits in the hands of a recipient, is probably not 
the best definitional program or definition of success. Am I 
misinterpreting anything anyone is saying there? With all the 
nods of the head, it sounds like there is agreement there. So I 
appreciate that because a lot of times, I have conversations 
with Members up here and they are just as simple as, Well, if 
we get x number of dollars in the hands of a recipient, that is 
a win. That is a success. And clearly it is much broader than 
that. My intention in doing the work here is to improve lives, 
not just give benefits to people. So I appreciate that. With 
that, I yield back.
    Chairman REICHERT. Thank you. Mr. Kelly.
    Mr. KELLY. Thank you, Mr. Chairman. Again, thank you all 
for being here.
    One of the things I am trying to understand--and it is not 
for a lack of investment, is it, on the part of the government? 
I am looking at the investment that we make each year. And if 
the numbers I am hearing are right, it is about $600 billion a 
year that goes into trying to lift people out of poverty or 
support the most vulnerable in our society. That is a lot of 
money. But I think our concern is, what is the return on that 
investment? What are investing these dollars in? And the idea 
was to lift people out of whatever conditions they were in.
    So, Ms. Cox, I heard you say that part of the problem is, 
sometimes there is a negative incentive because once you get 
out of one level, then you go into another. And all of a 
sudden, it is like, well, this doesn't work in my best 
interest.
    So best practices, are you able to share those with each 
other? I know there are a lot of programs. Your State is doing 
some things that maybe other States should do.
    Do you have the ability to communicate back and forth?
    Ms. COX. Yes. There are associations and forums. But you 
know, when you are in the trenches--and especially during the 
recession, our caseloads increased by 63 percent. So we were 
just treading water to get through that and get people back to 
work and contain costs. We were able actually to reduce our 
costs by 33 percent while our caseloads increased by 63 percent 
and improve our timeliness. But it is really difficult. It is 
nice to have the luxury, with all due respect, to analyze this 
stuff for 4 or 5 years. But that isn't a reality when you are 
on the ground.
    So we need people--these brilliant people here to inform 
us, to educate us. We are committed to evidence-based practices 
in Utah. It is the only way we will hit our 25 percent 
improvement in some of our agencies. But sometimes we need 
States just to be able to innovate to get to the clear results. 
Because if we don't have time to do the evidence-based 
practice, and we are not allowed to innovate, we are stagnant, 
and we can never make progress. So that is the bind States are 
in. We need evidence-based practices. But when it is not there, 
we need the flexibility to innovate to get the results for you 
guys and for the taxpayers.
    Mr. KELLY. And you mentioned innovation. My friend David 
Bradley has talked to me many times. He is with the National 
Community Action Foundation. And he talks about the ability to 
look at innovation, to look at the performance data, and then 
also local control of these dollars. And again, I have a friend 
in Sharon, Pennsylvania, by the name of Ron Errett who runs a 
program up there. It is the Community Action Partnership of 
Mercer County. So I have seen locally in the district that I 
represent a lot of programs that work really well. And I think 
we have got to be careful that we don't paint everybody with 
the same brush and say, we are wasting this money. Nothing is 
going the right way. I don't think that is true. And we 
referenced the Nurse Family Partnership, how much that has 
worked.
    But it does come down to, how do we get that? How do we get 
the innovation message out? How do we share those practices? 
Mr. Baron, you made some comments about that when you talked 
about the ability. And the results speak for themselves. When 
you see something good, how do you get that out? Because I have 
got to tell you, in my district, I was able to look up and down 
northwestern Pennsylvania. The poverty level is probably 
somewhere between 25 and 30 percent. Not really mattering what 
town you go into, big cities, little towns, it is about the 
same. This poverty thing is something that is really troubling 
that we spend all this money, but we haven't gotten any results 
and we don't see that happen. I know part of it is the economy 
not bouncing back. And maybe we are spending a lot of time 
criticizing programs and not coming up with leadership programs 
or strategies that lifts everybody.
    Ms. COX. Can I make one more point on that just to be kind 
of bossy?
    Mr. KELLY. Sure.
    Ms. COX. There are associations, administrators, that are 
always connecting and going to conferences and talking about 
best practices. But part of the challenge is, we have the 
evidence-based practice. But if you were to look and do our 
mapping and look at an employee's time. They have 8 hours a 
day. And let's say we even know what the evidence-based 
practice is. We know that they should be doing X, Y, Z every 
day with their customers to get the impact. If you were to map 
out how much time they actually spend doing that, in some 
cases, you will find 10, 20, 30, 40 percent of their time is 
actually spent on the evidence-based practice. The rest of the 
time it is spent on compliance, recording, paperwork, a lot of 
other stuff. So can you imagine the capacity to impact low-
income individuals? If we could just double the time on the 
ground in your operations and in your systems design of what 
people do----
    Mr. KELLY. I am going to agree with you because I have got 
to tell you. I run a private business. We do the same thing 
with our business trying to be in compliance. If I could just 
do what we are designed to do every day and not worry about 
being in compliance with the Feds, the local, and the State, we 
would probably get a lot more done. Mr. Baron you were going to 
say something?
    Mr. BARON. Yes. One of the challenges in sort of 
identifying and sharing best practices, things that really work 
is that a lot of programs, almost every program claims to be 
evidence-based and backed by strong evidence and effective. And 
the truth is, while some of them are, when most programs--even 
those that are backed by pretty good evidence--are subjected to 
a definitive evaluation, many of the promising findings are not 
reproduced. Sometimes they are. So you do have some examples of 
effectiveness, but many times they are not.
    Steve Aos' organization, the Washington State Institute, 
does a valuable service by trying to distill what is really 
backed by strong evidence from others that are not. But there 
are some instances. There was a program that the reemployment 
and eligibility assessment program at the Department of Labor 
which has been shown very effective in a four-State randomized 
control trial with large effects on employment outcomes and 
reductions in spending.
    Mr. KELLY. Thank you.
    Chairman REICHERT. Thank you. Mr. Crowley.
    Mr. CROWLEY. Thank you, Mr. Chairman. Thank you for 
yielding me the time.
    I think we are all good stewards. I think we all want to be 
good stewards of our taxpayer dollars and certainly we want to 
put money where we think it best works for the American people.
    Mr. Baron, I just want to follow up my comments of Mr. 
Doggett as well as Mr. Davis as it pertains to the Nurse Family 
Partnership is the kind of program that has been proven to get 
results. As you know, I know--I am not so sure my colleagues 
know--that the program started in my home State of New York--in 
fact, in Elmira, in my good friend, Mr. Reed's district. And I 
have long followed the very impressive work that they have been 
involved in replicating this model and achieving very 
significant positive outcomes. Reductions in child abuse and 
neglect, better educational outcomes for children, and greater 
likelihood of economic stability for the mother, these are just 
some of the results that actually save the government money in 
the long term.
    Mr. Baron, do you think that is correct, that it has an 
effect in terms of saving taxpayer dollars in the long run?
    Mr. BARON. In this case, I think the answer is yes, 
especially with the Nurse Family Partnership. One of the trials 
that was done in Memphis, Tennessee, measured not only the 
impacts you are describing, like child hospitalizations and 
educational outcomes for the children, it also measured 
participants' use of government assistance--Medicaid, food 
stamps, welfare over a 12-year period. And this was not a 
projection. They measured use of government assistance in the 
treatment versus control group. So this was a credible finding. 
And it found that the program produced savings that more than 
offset the cost of the program.
    Mr. CROWLEY. Mr. Baron, would you also agree that programs 
like this particular one are an example of the importance of 
looking at successes not just in the short term, but in the 
greater awards to our society down the road? And not just 
immediate.
    Mr. BARON. Yes. Because some of the effects are longer 
term. Some of the effects were short term. There were immediate 
effects on reductions in child maltreatment and 
hospitalizations. But there were also longer term.
    Mr. CROWLEY. So leading to a much longer and productive 
life for the child in the long term.
    Mr. BARON. That is correct. But a slight nuance on that is 
that some programs--especially in work force development--they 
produce short-term effects, which dissipate over time. And so 
for those kinds of programs, it is important not only to 
measure the short-term effects which are sometimes large, but 
whether it produces sustained effects on the amount of----
    Mr. CROWLEY. I appreciate your comments.
    Better access to health care coverage, nutrition programs 
in early childhood, we believe leads to greater health and 
reduced medical costs later in life. And that is what we are 
talking about at this point in time as it pertains to the Nurse 
Family Partnership.
    Strong education, mentoring, and family supportive programs 
reduce incidents of criminal activity and school dropout rates 
as well. I think too often, we have a tendency and I think is a 
willingness to cut a program for ideological purposes not 
because it is what is in the best interest of our country. We 
see it in the Affordable Care Act. We have seen it in the farm 
bill nutrition programs. We have seen it as well in the social 
services block grants and others. It seems like the lesson here 
today is that we need to carefully invest in the programs that 
work and really put a lot of thought and study into our 
budgeting process.
    So I would think the budget approach we have recently seen 
with policies, like sequestration, is the exact opposite of 
what we ought to be doing. Blunt across-the-board cuts and not 
replacing them with a thoughtful plan that grows the economy 
certainly doesn't fit with the evidence-based approach that 
seems to be the recommendation of the witnesses here today. I 
would hope that my colleagues not just on this Committee but on 
the Budget and Appropriations Committees as well and every 
other Committee draw lessons from this hearing. And I look 
forward to more a constructive conversation and hearings like 
this in the future.
    With that, I yield back the balance of my time.
    Chairman REICHERT. I can assure my good friend that I am 
very interested in evidence-based results as an old time cop. 
So with 33 years in that field, I am looking for evidence. Mr. 
Young.
    Mr. YOUNG. I want to thank the chairman for holding this 
hearing on what really works. I think it is incredibly 
important. It may be mundane to some people. It may be boring 
to others. Metrics and data and all these other things. But let 
me begin by defining the challenge and perhaps identifying the 
opportunity or opportunities as I see them here. My interest in 
this topic actually emerged the second I found out I was going 
to get on this committee. I suspected it wasn't unlikely I was 
going to be on the Human Resources Subcommittee, and that is a 
good thing. We deal on this committee with what some regard as 
unsolvable social pathologies. And I sort of refused to believe 
that.
    So I know a number of pilot programs over the years have 
taken place across our 50 States. So I directed Members, 
associates on our team to try and identify the results of those 
different pilot programs and find some central repository where 
we could find out what really works and under what 
circumstances. It was incredibly tedious work; and frankly, 
there was no such repository. There was not a navigable Web 
site. There wasn't a particular organization that seemed to 
have answers about what really works and what data you could 
look at and what works under different circumstances.
    I found this frustrating as a policymaker. And I think at 
the State level, local level, not for profits, academics, think 
tankers, and so on, could all benefit from more clarity here 
and a more robust collection of data.
    What are we left with without this sort of repository of 
accessible data? Well, we make policy based on ideology, on 
politics, on analogy, sometimes anecdotes, the news of the day; 
but we don't really make decisions based on the hard data. So I 
started doing a bit of reading. I discovered that in 1988, 
under the AFDC Reform Act of that year--not often talked 
about--there was a requirement that data be collected on the 
recipient population of AFDC. That data years later--oftentimes 
it does take years for this information to be teased out--that 
data established the intellectual groundwork for a bipartisan 
reform of the AFDC program, now the TANF program.
    We need to make similar efforts in other areas. We need to 
do more evidence-based policymaking.
    Mr. Baron, thank you. It is so great to see you here today. 
You are really a gift to this conversation. I thank everyone 
else as well. And we have convened a group of people to discuss 
this topic. It is my hope that we can come up with a more 
systematic way of collecting data in a number of different 
areas and promulgate and disseminate that data to others for 
the purpose of research and also for the purpose of evaluation 
so that when innovation occurs at the State level, we will know 
if, in fact, it is working and then share. It is an iterative 
process. Share what is learned with others. And that will 
enable us to do very creative things, like social impact funds, 
pay for performance, pay for success in some of these social 
areas, the same sort of thing we do in, say, the transportation 
sector, performance-based contracting.
    Mr. Baron, you said Congress could take steps in your 
statement toward what I have envisioned, I believe, by 
authorizing and encouraging agencies to allow greater research 
access to administrative data with appropriate privacy 
protections so as to facilitate low-cost rigorous evaluation.
    I have two questions for you. First, what data is the 
Federal Government failing to collect that we ought to be 
collecting about beneficiaries of government programs? And 
second--and I see my time is running down, so you can submit 
this in writing. But second, I did want to get it on the 
record, what data is already being collected by the Federal 
Government, such as receipt of government assistance, 
employment status, earning status that we should release to the 
public for research purposes so it is not just our bureaucrats 
who are armed with all the information.
    Mr. BARON. I would like to submit a response in writing. 
But also a very quick answer to the second part of your 
question. This Subcommittee took a major step forward, we 
believe. We were very supportive of the subcommittee's action 
to increase researcher access with appropriate privacy 
protections to the National Directory of New Hires, the NDNH 
data, which has, at the Federal level, the employment and 
earnings records. You can use it to measure employment and 
earning records--earning outcomes for participants in any 
study. It should be more widely available. It would reduce the 
cost of some of these rigorous studies by a factor of 10 or 
more.
    Mr. YOUNG. Thank you.
    Mr. REICHERT. Thank you, Mr. Young. Thank you to all of the 
witnesses for being here today and taking the time to be with 
us. And we have finished this almost in record time, just in 
time for votes. I thank the Members for being here too. We look 
forward to working with you and reaching out to you and asking 
you questions, more questions that will come, I am sure, as we 
struggle with trying to find solutions here that are evidence-
based, where we hold programs accountable, make sure that we 
are really helping those people who need the help and ensure 
that they are moving up that economic ladder as we all hope 
that they do.
    So if Members have additional questions for the witnesses, 
they will submit them to you in writing. And we would 
appreciate receiving your responses for the record within 2 
weeks. The Committee stands adjourned. Thank you.
    [Whereupon, at 5:30 p.m., the subcommittee was adjourned.]

    [Submissions for the Record follow:]

                        Family Equality Council
                        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                          
                        



                                 <F-dash>
                    American Evaluation Association
                    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   


                                 <F-dash>
                            Urban Institute
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   


                                 <F-dash>
                             Zero to Three
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   


                                 <F-dash>
                    Capital IDEA Board of Directors
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   


                                 <F-dash>
                         PEW Charitable Trusts
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   

                                 <F-dash>
                        Chautauqua Opportunities
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   

                                 <all>
</pre></body></html>
